                     OFFICE OF
             THE INSPECTOR GENERAL
                   U.S. NUCLEAR
             REGULATORY COMMISSION


                   Audit of NRC’s Generic Communications
                                  Program

                     OIG-05-A-19      September 30, 2005




                      AUDIT REPORT




All publicly available OIG reports (including this report) are accessible through
                              NRC’s Web site at:
             http:/www.nrc.gov/reading-rm/doc-collections/insp-gen/
                                          September 30, 2005




MEMORANDUM TO:              Luis A. Reyes
                            Executive Director for Operations



FROM:                       Stephen D. Dingbaum/RA/
                            Assistant Inspector General for Audits


SUBJECT:                    AUDIT OF NRC’S GENERIC COMMUNICATIONS
                            PROGRAM (OIG-05-A-19)

Attached is the Office of the Inspector General’s (OIG) audit report, Audit of
NRC’s Generic Communications Program.

The audit identified generic communications, specifically, safeguards advisories,
that are issued outside of NRC's existing regulatory framework. As a result, the
agency (1) may be unable to pursue actions requested or required of licensees in
its generic communications, and (2) compromises its openness policy, thereby
affecting the public's confidence in NRC's regulatory processes and decision-
making.

Additionally, controls for oversight of licensee actions on generic communications
are inadequate and NRC did not employ a sound methodology when conducting
its effectiveness assessment of the Generic Communications Program. As a
result, the agency risks the potential loss of safety/regulatory data and lacks
assurance that its generic communications are effective.

Comments from the September 6, 2005, exit conference and your September 27,
2005, written comments have been incorporated, as appropriate, in our final
report. Appendix B contains the agency’s formal written response in its entirety.
Appendix C presents OIG’s detailed analysis of the formal comments.

If you have any questions or wish to discuss other issues, please call
Anthony Lipuma at 415-5910 or me at 415-5915.

Attachment: As stated
Distribution

John T. Larkins, Executive Director, Advisory Committee on Reactor
 Safeguards/Advisory Committee on Nuclear Waste
G. Paul Bollwerk, III, Chief Administrative Judge, Atomic Safety andT
 Licensing Board Panel
Karen D. Cyr, General Counsel
John F. Cordes, Jr., Director, Office of Commission Appellate Adjudication
Jesse L. Funches, Chief Financial Officer
Janice Dunn Lee, Director, Office of International Programs
William N. Outlaw, Director of Communications
William N. Outlaw, Acting Director, Office of Congressional Affairs
Eliot B. Brenner, Director, Office of Public Affairs
Annette Vietti-Cook, Secretary of the Commission
William F. Kane, Deputy Executive Director for Reactor
  and Preparedness Programs, OEDO
Martin J. Virgilio, Deputy Executive Director for Materials, Research,
  State and Compliance Programs, OEDO
Jacqueline E. Silber, Deputy Executive Director for Information Services
   and Administration, and Chief Information Officer, OEDO
William M. Dean, Assistant for Operations, OEDO
Timothy F. Hagan, Director, Office of Administration
Michael R. Johnson, Director, Office of Enforcement
Guy P. Caputo, Director, Office of Investigations
Edward T. Baker, Director, Office of Information Services
James F. McDermott, Director, Office of Human Resources
Corenthis B. Kelley, Director, Office of Small Business and Civil Rights
Jack R. Strosnider, Director, Office of Nuclear Material Safety and Safeguards
James E. Dyer, Director, Office of Nuclear Reactor Regulation
Carl J. Paperiello, Director, Office of Nuclear Regulatory Research
Paul H. Lohaus, Director, Office of State and Tribal Programs
Roy P. Zimmerman, Director, Office of Nuclear Security and Incident Response
Samuel J. Collins, Regional Administrator, Region I
William D. Travers, Regional Administrator, Region II
James L. Caldwell, Regional Administrator, Region III
Bruce S. Mallett, Regional Administrator, Region IV
                                          Audit of NRC’s Generic Communications Program


EXECUTIVE SUMMARY

   BACKGROUND

        The Nuclear Regulatory Commission’s (NRC) primary method of
        communicating concerns or issues to licensees is through generic
        communications, i.e., transmittals to one or more classes of licensees.
        NRC issues several types of generic documents to its licensees and
        stakeholders in order to communicate significant industry operating
        experience, request action or information on safety concerns, or
        provide guidance on issues of regulatory interest. NRC encourages
        voluntary industry cooperation and participation in the agency’s
        Generic Communications Program.

        NRC’s Generic Communications Program identifies four
        communication products - bulletins, generic letters, regulatory issue
        summaries, and information notices. The first three of the four
        communiqués can request actions or require responses from
        licensees; information notices are to simply provide information.
        However, Generic Communications Program products cannot be used
        to impose new requirements or mandatory actions. The
        communication tool used for imposing mandatory regulatory
        requirements is an NRC Order.

        The Office of Nuclear Reactor Regulation (NRR) has primary
        responsibility for implementing the agency’s Generic Communications
        Program. In addition to NRR, the Office of Nuclear Material Safety and
        Safeguards issues generic communications to its materials licensees
        and the Office of Nuclear Security and Incident Response issues
        security-related generic communications to all classes of NRC
        licensees. After issuance of a generic communication, the applicable
        NRC program office conducts follow-up activities, including monitoring
        and assessing licensees’ performance related to generic
        communications.

                Prior Agency Assessments

        Over the past 10 years, a number of agency self-assessments have
        identified weaknesses in the Generic Communications Program. In
        response, the agency implemented a number of corrective actions,
        including revisions to internal policies and procedures.



                                    i
                                        Audit of NRC’s Generic Communications Program

PURPOSE

      The purpose of this audit was to assess the effectiveness of the
      Generic Communications Program, specifically:

      ¾ whether NRC generic communications are issued in accordance
        with the Generic Communications Program and other regulatory
        requirements, and

      ¾ how NRC tracks licensee actions on generic communications.

RESULTS IN BRIEF

      Through its Generic Communications Program, NRC has an
      established framework for developing and issuing certain generic
      communications. However, OIG identified weaknesses with the
      agency’s internal controls over generic communications. Specifically,

       A.     safeguards advisories (i.e., a security-related generic
              communication) are issued outside of NRC’s existing
              regulatory framework,

       B.     controls for oversight of licensee actions on generic
              communications are inadequate, and

       C.     NRC’s self-assessment’s conclusion of Generic
              Communications Program effectiveness is not supported.

      These issues exist primarily because NRC management has not
      followed existing policies and procedures by developing and issuing
      generic communications outside of the agency’s regulatory framework.
      Without application of adequate internal controls to ensure that agency
      communications are promulgated in accordance with applicable
      regulatory requirements, the agency may be unable to pursue actions
      requested or required of licensees in its generic communications, and
      may compromise its openness policy, thereby affecting the public’s
      confidence in NRC’s regulatory processes and decision-making.

      Furthermore, NRC’s controls for oversight of licensee actions on
      generic communications are inadequate and the agency did not
      employ a sound methodology when conducting its effectiveness
      assessment of the Generic Communications Program. As a result,
      NRC risks the potential loss of safety/regulatory data and lacks
      assurance that its generic communications are effective.
                                  ii
                                      Audit of NRC’s Generic Communications Program

RECOMMENDATIONS

     This report makes four recommendations to the Executive Director for
     Operations to strengthen the agency’s oversight and controls of its
     generic communications.

OIG ANALYSIS OF AGENCY COMMENTS

     At an exit conference with agency senior executives held on
     September 6, 2005, NRC officials generally agreed with most of the
     report’s findings and recommendations. Subsequent to that meeting,
     NRC provided informal comments on the draft report and OIG met with
     NRR management to address specific issues and concerns needing
     further clarification and/or explanation. On September 27, 2005, the
     Deputy Executive Director for Reactor and Preparedness Programs,
     Office of the Executive Director for Operations, provided a formal
     response to this report in which the staff generally concurs with the
     report’s findings and recommendations. The Deputy Executive
     Director’s transmittal letter and specific comments on this report are
     included as Appendix B.

     This final report incorporates revisions made, where appropriate, as a
     result of the subsequent meeting and the agency’s informal and formal
     written comments. Appendix C contains OIG’s specific responses to
     the agency’s comments.




                                iii
                     Audit of NRC’s Generic Communications Program




[Page intentionally left blank.]




               iv
                                  Audit of NRC’s Generic Communications Program


ABBREVIATIONS AND ACRONYMS

       ACRS         Advisory Committee on Reactor Safeguards
       CFR          Code of Federal Regulations
       CRGR         Committee to Review Generic Requirements
       FTE          full-time equivalent
       MD           Management Directive
       NMSS         Office of Nuclear Material Safety and Safeguards
       NRC          Nuclear Regulatory Commission
       NRR          Office of Nuclear Reactor Regulation
       NSIR         Office of Nuclear Security and Incident Response
       OGC          Office of the General Counsel
       OIG          Office of the Inspector General
       OMB          Office of Management and Budget
       Task Force   Davis-Besse Lessons Learned Task Force




                            v
                     Audit of NRC’s Generic Communications Program




[Page intentionally left blank.]




               vi
                                                              Audit of NRC’s Generic Communications Program


TABLE OF CONTENTS

    EXECUTIVE SUMMARY.................................................................................. i

    ABBREVIATIONS AND ACRONYMS ...............................................................v

    I.     BACKGROUND ....................................................................................... 1

    II.    PURPOSE................................................................................................ 4

    III.   FINDINGS ................................................................................................ 5

             A.     SAFEGUARDS ADVISORIES ARE ISSUED OUTSIDE OF NRC’S
                    EXISTING REGULATORY FRAMEWORK ................................................ 5

             B.     CONTROLS FOR OVERSIGHT OF LICENSEE ACTIONS ON GENERIC
                    COMMUNICATIONS ARE INADEQUATE ............................................... 17

             C.     NRC’S SELF-ASSESSMENT’S CONCLUSION OF GENERIC
                    COMMUNICATIONS PROGRAM EFFECTIVENESS IS NOT
                    SUPPORTED .................................................................................. 20

    IV.    CONSOLIDATED LIST OF RECOMMENDATIONS .............................. 23

    V.     AGENCY COMMENTS .......................................................................... 24

    APPENDICES

             A.     SCOPE AND METHODOLOGY .................................................. 25
             B.     FORMAL AGENCY COMMENTS ............................................... 27
             C.     DETAILED OIG ANALYSIS OF AGENCY COMMENTS ............. 33




                                                     vii
                     Audit of NRC’s Generic Communications Program




[Page intentionally left blank.]




              viii
                                                              Audit of NRC’s Generic Communications Program


I.    BACKGROUND

                 The Nuclear Regulatory Commission’s (NRC) primary method of
                 communicating concerns or issues to licensees is through generic
                 communications. The agency defines generic communications as
                 “transmittals to one or more classes of licensees.” NRC issues several
                 types of generic documents to its licensees and stakeholders in order
                 to communicate significant industry operating experience, request
                 action or information on safety concerns, or provide guidance on
                 issues of regulatory interest. NRC encourages voluntary industry
                 cooperation and participation in the agency’s Generic Communications
                 Program.

                          NRC’s Generic Communications Program

                 The Generic Communications Program identifies four communication
                 products - bulletins, generic letters, regulatory issue summaries, and
                 information notices. The first three of the four communiqués can
                 request actions or require responses from licensees; information
                 notices are to simply provide information. However, Generic
                 Communications Program products cannot be used to impose new
                 requirements or mandatory actions. The communication tool used for
                 imposing mandatory regulatory requirements is an NRC Order.1

                 Table 1 summarizes the intended purpose of each of the four Generic
                 Communications Program products.




1
 NRC Orders are regulatory requirements that may modify, suspend, or revoke a license; instruct a licensee to
cease and desist from a given practice or activity, or to take such other action as may be proper.
                                                       1
                                                                Audit of NRC’s Generic Communications Program



                                                    Table 1

                          NRC Generic Communications Program’s
                          Officially Recognized Products and Uses


                                                                                                   Can Require
  Type                                       Issuance Purpose                                      Response or
                                                                                                     Request
                                                                                                      Action
              •    share urgent risk-significant issues
                                                                                                          Yes
Bulletins     •    can be issued on an expedited basis without extensive formal interaction with
                   industry

              •    have licensees perform analyses or submit descriptions of proposed
                   corrective actions on matters of safety, safeguards, or the environment and            Yes
                   may request written submittals that they have completed the requests with or
                   without prior NRC approval of the action
Generic
Letters       •    request technical information that NRC needs to perform its functions

              •    submit proposed changes to technical specifications

              •    document NRC endorsement of the resolution of issues addressed by
                   industry-sponsored initiatives                                                           Yes
                                                                                                   (but response is
              •    solicit voluntary licensee participation in pilot programs                      strictly voluntary)
Regulatory
Issue         •    inform licensee of opportunities for regulatory relief
Summaries
              •    announce staff technical or policy positions not previously communicated to
                   industry or not broadly understood

              •    address matters previously reserved for administrative letters


              •    bring significant, recently identified operating experience about safety,               No
                   safeguards, or environmental issues to the attention of the nuclear industry.
Information        [Addressees are expected to review the information for applicability to their
Notices            facilities and consider actions, as appropriate, to avoid similar problems.]

              •    do not convey or imply new requirements or interpretations



                     Generic Communications Program Responsibilities

                  The Office of Nuclear Reactor Regulation (NRR) has primary
                  responsibility for implementing the agency’s Generic Communications
                  Program, including providing guidance regarding the development,

                                                          2
                                                          Audit of NRC’s Generic Communications Program

                processing, closeout, and follow-up activities. NRR staff work with
                NRC’s four regions and other program offices to ensure public health
                and safety by systematically monitoring reactor-related events, reports,
                and data to determine the need for a generic communication.

                In addition to NRR, the Office of Nuclear Material Safety and
                Safeguards (NMSS) issues generic communications to its materials
                licensees and the Office of Nuclear Security and Incident Response
                (NSIR) issues security-related generic communications to all classes of
                NRC licensees.

                After issuance, the applicable NRC program office conducts follow-up
                activities, including monitoring and assessing licensees’ performance
                related to generic communications.

                         Generic Communications Program Budget and Resources

                Although NMSS and NSIR each expend resources in the development
                of generic communications, only NRR identifies the budget and
                resources for Generic Communications Program activities. For
                FY 2005, the agency budgeted $72,000 (including $12,000 of
                carryover funds from FY 2004) for estimated activity within NRR’s
                Generic Communications Program and 8.7 full-time equivalents (FTE)
                for generic communications and compliance activities. Actual
                expenditures for FY 2004 were $43,000 and 6.06 FTE.

                NRR does not budget resources for generic communications
                completed by NMSS or NSIR. Because these two program offices do
                not specifically identify resources attributed to generic communications
                activities as separate budget line items, the Office of the Inspector
                General (OIG) could not determine the level of actual resources (FTE
                and dollars) expended.

                         Prior Agency Assessments

                Over the past 10 years, a number of agency self-assessments2 have
                identified weaknesses in the Generic Communications Program. In
                response, the agency implemented a number of corrective actions,
                including revisions to internal policies and procedures.


2
 1995 SECY-95-063, Final Report on NRC Analysis and Response to the Towers Perrin Nuclear Regulatory
Review Study, dated March 15, 1995; Davis-Besse Reactor Vessel Head Degradation Lessons-Learned Task
Force Report, dated September 30, 2002; and Effectiveness Review of Lessons Learned Task Force Reports,
dated August 2, 2004.
                                                    3
                                          Audit of NRC’s Generic Communications Program


II.   PURPOSE

         The purpose of this audit was to assess the effectiveness of the
         Generic Communications Program, specifically:

         ¾ whether NRC generic communications are issued in accordance
           with the Generic Communications Program and other regulatory
           requirements, and

         ¾ how NRC tracks licensee actions on generic communications.

         Appendix A provides a detailed description of the audit’s scope and
         methodology.




                                     4
                                                                Audit of NRC’s Generic Communications Program


III.      FINDINGS

                  Through its Generic Communications Program, NRC has an
                  established framework for developing and issuing certain generic
                  communications. However, OIG identified weaknesses with the
                  agency’s internal controls over generic communications. Specifically,

                  A.       safeguards advisories (i.e., a security-related generic
                           communication) are issued outside of NRC’s existing regulatory
                           framework,

                  B.       controls for oversight of licensee actions on generic
                           communications are inadequate, and

                  C.       NRC’s self-assessment’s conclusion of Generic
                           Communications Program effectiveness is not supported.

                  Without adequate internal controls, NRC cannot ensure the proper use
                  of, or response to, generic communications. As a result, the agency
                  may not be able to pursue actions requested or required of licensees in
                  its generic communications, which could compromise the public’s
                  confidence in NRC’s regulatory program.


       A. Safeguards Advisories are Issued Outside of NRC’s Existing Regulatory
       Framework

                  NSIR issues security advisories3 that are developed and distributed
                  outside of NRC’s Generic Communications Program because NSIR
                  managers believe the formal process takes too long. As a result, the
                  advisories, particularly safeguards advisories, are not developed in
                  accordance with the agency’s structured review and approval
                  practices. Consequently, safeguards advisories could be issued that
                  do not meet regulatory requirements. The lack of a formal process
                  could lead to an absence of necessary reviews and thereby
                  compromise NRC’s regulatory process. Furthermore, the lack of a
                  clear, publicly documented process for requesting and disseminating
                  information through safeguards advisories compromises NRC's
                  openness principle for transparent regulation.


3
  The generic term “security advisories” denotes threat and safeguards advisories, as well as security letters sent
to classes of licensees.

                                                        5
                                                                   Audit of NRC’s Generic Communications Program



                    Generic Communications Program Process Reviews

                    All Generic Communications Program products (initiated by NRR,
                    NMSS, or NSIR) go through the Program’s disciplined process that
                    includes the following controls associated with technical and regulatory
                    reviews:

                    ¾ Committee to Review Generic Requirements Review

                    The Committee to Review Generic Requirements (CRGR) is an
                    advisory committee to NRC's Executive Director for Operations and is
                    responsible for:

                             o helping NRC program offices to implement the Commission's
                               backfit policy, and
                             o ensuring that proposed generic backfits imposed on NRC-
                               licensed power reactor and selected nuclear materials
                               licensees are appropriately justified per NRC regulations.

                                          Backfit Review

                                      Backfitting is defined as the modification of systems,
                                      structures, components, or design of a plant or a facility;
                                      or the design approval or manufacturing license for a
                                      facility; or the procedures or organization required to
                                      design, construct, or operate a plant or a facility; any of
                                      which may result from a new or amended provision in the
                                      Commission rules or the imposition of a regulatory staff
                                      position.

                                      NRC’s backfit rules for reactors and materials4 require a
                                      systematic analysis be satisfied for all backfits the
                                      agency seeks to impose,5 unless a documented
                                      evaluation determines that the backfit is necessary for
                                      either “compliance” or “adequate protection” purposes.



4
    “Backfitting.” per 10 CFR sections 50.109, 70.76, and 76.76.
5
  Backfits may be imposed if the Commission’s analysis determines that there is a substantial increase in the
overall protection of the public health and safety or the common defense and security, and that the direct and
indirect costs of implementation are justified in view of this increased protection [10 CFR 50.109 (a)(3)-(a)(4), 10
CFR 70.76(a)(2)-(a)(4), and 10 CFR 76.76(a)(2)-(a)(4)].

                                                          6
                                                                Audit of NRC’s Generic Communications Program

                                    Nonetheless, the regulation requires some form of
                                    documentation when imposing a backfit under either of
                                    these standards.6 There are no regulatory exceptions to
                                    the backfit rule for security issues.

                  ¾ Advisory Committee on Reactor Safeguards Review

                  The Advisory Committee on Reactor Safeguards (ACRS) is statutorily
                  mandated and has three primary purposes:

                           o review and report on safety studies and reactor facility
                             license and license renewal applications;
                           o advise the Commission on the hazards of proposed and
                             existing reactor facilities and the adequacy of proposed
                             reactor safety standards; and
                           o initiate reviews of specific generic matters or nuclear facility
                             safety-related items.

                  ACRS reviews generic communications, when applicable, before the
                  generic communication is issued for public comment. The Committee
                  can defer its response until after public comments are received and
                  reviewed. Additionally, ACRS should receive copies of all generic
                  letters and bulletins and selected regulatory issue summaries
                  forwarded for CRGR review.

                  ¾ Paperwork Reduction Act Compliance Review

                  The Paperwork Reduction Act of 1980 (Act), as revised in 1995,
                  governs Federal requests for information collections and stipulates that
                  independent regulatory agencies (such as NRC) must justify to the
                  Office of Management and Budget (OMB) their information collection
                  requests.

                  The Paperwork Reduction Act is intended to:

                           o    minimize the burden for respondents,
                           o    minimize information collection-related costs to the Federal
                                government, and




6
  If immediately effective regulatory action is required, a provision at 10 CFR 50.109(a)(6), 10 CFR 70.76(a)(6),
and 10 CFR 76.76(a)(6), allows for the documented evaluation to follow, rather than precede, the regulatory
action.
                                                        7
                                                                Audit of NRC’s Generic Communications Program

                           o    improve the responsibility and accountability of Federal
                                agencies to Congress and to the public for implementing the
                                information collection review process and information
                                management.

                  Corporations and businesses (such as NRC licensees) are covered by
                  the Act’s definition of persons or public entities that may be affected by
                  an agency’s “collection of information” activities.

                  The Act also requires that Federal agencies obtain and display a valid
                  OMB clearance (control) number for all information requests submitted
                  to 10 or more non-Federal entities or individuals.7 Each part of the
                  Code of Federal Regulations applicable to NRC contains an OMB
                  clearance number for NRC generic communication use.

                  Evolution of Security Advisories in View of September 11, 2001

                  Prior to the terrorist attacks of September 11, 2001, the agency
                  dispatched only threat advisories. NRC threat advisories were issued
                  infrequently and were informational only in nature, primarily
                  communicating threat environment information to licensees.
                  Immediately following the terrorist attacks of September 11, 2001, the
                  agency quickly issued threat advisories to its licensee community.
                  This was an effective and efficient use of agency resources and
                  allowed the licensee community to be quickly apprised of changing
                  threat information.

                  In the weeks that followed, NRC continued to use threat advisories to
                  communicate information to licensees. In October 2001, the agency
                  issued a threat advisory which stated that additional details would be
                  provided in an upcoming “safeguards” advisory. From that time
                  forward, threat advisories continued to primarily fulfill their original
                  function of communicating information regarding changing threat
                  environments while the agency’s uses of the newly-created safeguards
                  advisories evolved over time.




7
 Information collection requests addressed to all or a substantial majority of an industry is presumed to involve
10 or more persons.

                                                        8
                                 Audit of NRC’s Generic Communications Program

      Change in Uses of Safeguards Advisories

According to NSIR documents, safeguards advisories are defined as a
communication of information from the NRC to licensees, where the
nature of the information provided involves:

¾ an identified vulnerability or potential vulnerability;
¾ protection of the national infrastructure;
¾ or any other information that requires immediate or prompt attention
  that would not be timely if other generic communication procedures
  were utilized.

In the months following September 11, 2001, the pattern of use of
threat advisories continued as described above, while the issuance
rate was understandably less than that in the immediate aftermath of
the attacks. Similarly, safeguards advisories were also seen as a
quick method to work in cooperation with the licensee community in
response to the terrorist attacks of September 11, 2001. However, in
contrast to threat advisories, safeguards advisories began to be used
more frequently to achieve a number of purposes other than sharing
information. For example, some safeguards advisories communicated
information, requested information, requested action, and provided
regulatory interpretations.

      NSIR’s Organizational Development

In April 2002, NRC consolidated staff members experienced in
safeguards, security, and incident response functions into the new
NSIR office, in order to improve timeliness and consistency of
communications among NRC’s employees and external stakeholders.
To meet the urgent security needs of the agency after the terrorist
events of September 11, 2001, this newly formed program office
became operationally functional in advance of developing its
organizational framework, policies, and procedures. Consequently,
NSIR-issued safeguards advisories were developed and distributed
outside of the agency’s established regulatory framework.




                           9
                                                              Audit of NRC’s Generic Communications Program

                  NSIR managers acknowledge that safeguards advisories are a form of
                  generic communication being developed and issued beyond the
                  established regulatory framework. To date, NSIR has not finalized any
                  internal office policies or procedures to address the selection,
                  development, or issuance of safeguards advisories.8 Furthermore, the
                  agency provides guidance and procedures intended to ensure that
                  generic communications are justified and comply with regulatory
                  requirements. However, safeguards advisories are not discussed in
                  any of the agency’s existing procedures or directives.

                  ¾ NSIR Perceives the Generic Communications Program as
                    Untimely

                  NSIR justifies issuing safeguards advisories outside of any established
                  processes on two grounds: first, that security issues require quick
                  notification to the licensee community; and second, the perception that
                  the agency’s Generic Communications Program is not efficient enough
                  to meet the timeliness needs of safeguards advisories.

                  o Examples of Generic Communications Processing Times

                      Shortly after September 11, 2001, agency managers from offices
                      responsible for safeguards and security issues created the new
                      security-related generic communications vehicle called “safeguards
                      advisory” because they felt the bureaucratic nature of the Generic
                      Communications Program would impede the timeliness of issuing
                      important security communications. In fact, the agency defines
                      safeguards advisories as a type of communication to use for
                      information that “[r]equires immediate or prompt attention that
                      would not be timely if other generic communication procedures
                      were utilized.” Specifically, NRC managers understood that it
                      generally takes at least several months to issue a generic
                      communication through the Generic Communications Program.
                      Although not typical, Table 2 shows that generic communications
                      can be issued in as little as one day, when in response to a
                      significant event.




8
  During this audit, NSIR began drafting procedures to address safeguards advisories. However, NSIR said due
to other priorities and the additional consideration of whether advisories should be recognized and incorporated
in NRC’s formal Generic Communications Program, the formal procedures have not been finalized. NSIR stated
that it has an informal process for management review and approval of safeguards advisories.

                                                      10
                                                                Audit of NRC’s Generic Communications Program

                                                    Table 2

          Issue Times for Sample of Generic Communications Program Products

          Example                 Description                          Date               Elapsed Time from
            No.                                                                               Discovery9
                           Discovery of cavity in                March 7, 2002                    --
               1         Davis-Besse Vessel Head
                         Information Notice 02-11               March 12, 2002                    5 days
                             Bulletin 2002-01                   March 18, 2002                   11 days

                         Death of oncology patient            November 21, 1992                      --
                         attributed at least in part to
               2              radiation overdose
                         Second source separation             December 7, 1992                       --
                             reported to the NRC
                           Bulletin 92-03 Issued              December 8, 1992               1 day/17 days

                           Discovery of inadequate             January 27, 2005                      --
               3         fire barrier in seismic gaps
                          Information Notice 05-04            February 14, 2005                  18 days

                   The above examples show that generic communications dealing with
                   significant issues, such as the Davis-Besse vessel head problems, can
                   be issued in a timely manner. In fact, as reflected in bold in Table 2,
                   the agency developed and issued two bulletins (i.e., the Generic
                   Communications Program product designed to share urgent risk-
                   significant issues) in about two weeks ⎯ a time frame considered by
                   an NSIR senior executive as a “reasonable way to proceed.”

                   In addition, NSIR at times chose the Generic Communications
                   Program (see Table 3) to convey security matters of similar substance
                   to those found in safeguards advisories. Specifically, NSIR issued 18
                   regulatory issue summaries (a recognized Generic Communications
                   Program product), during the same time frame where NSIR issued 6510
                   threat and safeguards advisories (unrecognized generic




9
 The time used is very conservative because it is based on discovery or notification of the issue until issuance
date of the generic communication. This includes preparation time, review time, process reviews and
concurrence.
10
   NSIR provided information regarding the issuance of 65 security advisories during the reference period.
However, this number may be conservative because NSIR had not maintained a comprehensive log of the
issued advisories.
                                                        11
                                                    Audit of NRC’s Generic Communications Program

        communications products). Yet, in these cases, NSIR has no
        documented rationale for selecting a recognized generic
        communications product versus using security advisories.


                                         Table 3

   NRC/NSIR Security-Related Generic Communications Issued
         September 11, 2001 through January 26, 2005

                Type                                                Number
 Security Advisories*                                                 65
 Regulatory Issue Summaries**                                           18
 Orders***                                                              10
 Total                                                                  93

   *Threat and safeguards advisories - not recognized by the Generic Communications Program
 **Official Generic Communications Program product
***Orders meet the generic communication definition when issued to one or more classes of licensees


        ¾ Lack of Technical and Regulatory Reviews Compromises
          NRC’s Regulatory Processes

        The agency’s use of advisories significantly increased after September
        11, 2001. Agency managers and staff, as well as industry
        representatives have more and more often questioned the regulatory
        authority for issuing advisories. Of particular concern are the
        safeguards advisories primarily because, as stated by a senior Nuclear
        Energy Institute representative, NRC is using many safeguards
        advisories “to establish new requirements without going through the
        required agency review process.”

        By developing and issuing generic communications outside of the
        established Generic Communications Program, NRC compromises its
        regulatory processes. For example, OIG determined that safeguards
        advisories have no documented regulatory foundation for
        communicating to licensees anything other than information. However,
        as shown in Figure 1 below, the majority of advisories served purposes
        beyond simply conveying information.




                                            12
                                            Audit of NRC’s Generic Communications Program



                             Figure 1*

     Purposes Served by Advisories Issued from
    September 11, 2001 through January 26, 2005




                                            Request
                 Request Action,        Information, 25%
                      40%


                                                          Contains Reg.
                                                         Guidance, 12%




                  Apparent
                 Requirements,
                     14%            Provide Info Only,
                                          42%




   *OIG notes that the percentages in the above chart exceed 100% because several
   advisories served multiple purposes other than providing information only.



OIG’s Technical Review of NRC/NSIR-Issued Generic
Communications

As discussed in Table 3, NRC/NSIR issued 93 security-related generic
communications from September 11, 2001 to January 26, 2005. OIG
determined that 65 of the communiqués were security-related
advisories, of which 38 percent (or 25 advisories) provided information
only. However, the remaining 62 percent (or 40 advisories) were used
for other purposes, such as requesting or requiring information or
licensee action, containing regulatory guidance, and conveying
apparent requirements. Figure 1 represents the purposes served by
the 65 security-related advisories.




                                   13
                                 Audit of NRC’s Generic Communications Program

The agency is obligated to follow appropriate regulatory requirements
for its generic communications. However, because advisories are
issued outside of the Generic Communications Program, the required
regulatory reviews were not performed. As a result, though
appropriate in some cases, safeguards advisories did not receive:

   ¾   CRGR backfit review although this committee has a defined role
       in reviewing generic communications to make sure NRC stays
       within its backfit authorities. Without CRGR review, NRC could
       impose an improper backfit on its licensees.

   ¾ ACRS technical review although this committee has a defined
     role in reviewing any generic communication that conveys
     requirements on licensees. Without ACRS review, NRC could
     impose unjustified requirements on its licensees.

   ¾ Paperwork Reduction Act review to ensure proper citing of
     either the applicable OMB control (clearance) number for
     information requests, or an exemption clause, where
     appropriate.

          o The Act states that the NRC “may not conduct or
            sponsor, and a person is not required to respond to, a
            request for information or an information collection unless
            the requesting document displays a currently valid OMB
            control number.”

       None of the safeguards advisories issued from September 11,
       2001 until mid-May 2005 displayed an OMB control number nor
       contained a statement that the provisions of the Paperwork
       Reduction Act do not apply (i.e., NRC review determined that
       OMB clearance was not required).

       Because NRC did not satisfy Paperwork Reduction Act
       requirements regarding control numbers, licensees have a basis
       to ignore requests or suggestions contained in NRC safeguards
       advisories. This brings into question the agency’s ability to
       pursue actions requested or required of licensees as contained
       in any of these advisories.




                           14
                                                                  Audit of NRC’s Generic Communications Program



                     ¾ NRC’s Openness Principle Is Compromised

                         According to NRC’s Strategic Plan, the agency has a goal to
                         “ensure openness in our regulatory process.”

                                  o The Openness goal further states that the NRC “views
                                    nuclear regulation as the public’s business and, as such,
                                    it should be transacted openly and candidly in order to
                                    maintain the public’s confidence. The goal to ensure
                                    openness explicitly recognizes that the public must be
                                    informed about, and have a reasonable opportunity to
                                    participate meaningfully in, the NRC’s regulatory
                                    process.”

                                  o The Strategic Outcome that supports the goal of
                                    openness is, “Stakeholders are informed and involved in
                                    NRC processes as appropriate.”

                     However, there is no clear, publicly documented process for
                     disseminating and requesting information through safeguards
                     advisories. In addition, safeguards advisories do not have a
                     consistent, formally-defined concurrence process. This lack of an
                     identified, transparent agency process compromises NRC's principle of
                     open regulation.

                     While NSIR senior managers acknowledge that there should be a
                     clear, formal process for the development and issuance of safeguards
                     advisories, they expressed a need for balance between protecting
                     public openness (an agency goal) and common defense and security
                     (the agency’s mission). Currently there are differing opinions among
                     NRC senior managers regarding the public’s right to know about the
                     information contained in the advisories. As of the date of this report,
                     the public may still not know of the existence of specific safeguards
                     advisories because they are not made publicly available even though
                     many do not contain information actually designated by the agency as
                     “Safeguards Information.”11




11
     The title “safeguards advisories” is misleading in that many do not contain Safeguards-classified information.

                                                          15
                                  Audit of NRC’s Generic Communications Program

Summary

Through its Generic Communications Program, NRC has an
established framework for developing and issuing certain generic
communications. However, NRC management has not followed
existing policies and procedures by developing and issuing safeguards
advisories outside of the agency’s regulatory framework. Without
application of adequate controls to ensure that agency
communications are promulgated in accordance with applicable
regulatory requirements, the agency may --

¾     Be unable to pursue actions requested or required of licensees
      in its generic communications,

¾     Compromise its openness policy, thereby affecting the public’s
      confidence in NRC’s regulatory processes and decision-making,
      and

¾     Lack assurance that its generic communications are effective.

To date, NSIR has not finalized any policies or procedures for
developing and issuing safeguards advisories.

RECOMMENDATIONS

OIG recommends that the Executive Director for Operations:

1. Include safeguards advisories, as well as any other agency
   communication tool that meets the definition of a generic
   communication, in the formal Generic Communications Program to
   ensure compliance with regulatory requirements.

2. Pursue immediately the applicability of including appropriate Office
   of Management and Budget control numbers in safeguards
   advisories.




                            16
                                          Audit of NRC’s Generic Communications Program

B. Controls for Oversight of Licensee Actions on Generic Communications
are Inadequate

        NRC’s oversight of licensee actions on generic communications is
        inadequate because the program lacks the controls for an agency-wide
        systematic follow-up methodology. Instead, the follow-up process is
        left to the discretion of the project managers responsible for each site.
        Without a systematic process to ensure that a generic communication
        is consistently monitored through its lifecycle (from initiation to
        closure), the agency could lose track of requests to licensees,
        responses from licensees, and important operating experience data
        that might identify potential safety and regulatory issues.

                Internal Controls for Generic Communications are
                Lacking

        The Generic Communications Program lacks standards for following
        the full lifecycle of an agency generic communication because the
        Program’s responsibilities end at issuance.

        OMB Circular A-123, Management Accountability and Control, dictates
        that agency internal controls include “the plan of organization, methods
        and procedures adopted by management to ensure its goals are met.”
        In addition, other Federal internal control standards reference a need
        for agencies to maintain clearly documented, readily available
        information on the full lifecycle of all agency communications.
        Therefore, NRC should have procedures in place to facilitate
        systematic tracking of generic communications from initiation to
        closure.

        Generic Communications Program Tracking Ends at Issuance

        The Generic Communications Program’s controls are not adequate
        because the Program only tracks part of the lifecycle of a generic
        communication. Specifically, the Program’s procedures address
        following a generic communication from the proposal stage, through
        development of the chosen product, but ends at document issuance.
        As a result, the Program does not track NRC or licensee actions
        related to the matter once the document is issued. Such subsequent
        actions include coordinating licensee responses, agency review of
        those responses, and any resulting inspections.



                                    17
                                  Audit of NRC’s Generic Communications Program

Upon issuance of a generic communication, individual NRC project
managers or organizational groups assume tracking responsibilities.
At this point, the process relies on the diligence of individuals rather
than a consistent, systematic tracking process. If agency management
desires the status of licensees’ actions on a particular generic
communication, the data is not available through the Generic
Communications Program. Instead, the data must be compiled from a
variety of sources, such as the project managers responsible for each
site.

The inherent risk in relying on individuals to track NRC or licensees
actions subsequent to issuance is that individuals may choose differing
tracking strategies (which may or may not be effective) or may fail to
track at all. NRC project managers have several information systems
at their disposal for tracking data on generic communications.
According to NRR staff, these systems include the Operating
Experience Section Task Tracking Database; the Multi-Plant Actions
system; the Time, Resource, Information, and Management system;
and the Reactor Program System. Each of these identified systems is
a standalone system and contains different, as well as duplicative,
generic communications information.

      Internal Guidance on Processing Generic Communications

NRR Office Instruction LIC-503, Generic Communications Affecting
Nuclear Reactor Licensees, and NRC Inspection Manual Chapter
0730, Generic Communications Regarding Materials and Fuel Cycle
Issues, both provide guidance and procedures for the preparation,
distribution, follow-up, and closeout of generic communications.

However, the internal guidance provides no agency-wide policies or
procedures regarding the systematic tracking of generic
communication follow-on activities performed by NRC or its licensees.
In other words, the guidance discusses ‘what’ needs to occur for
closing out a generic communication, but not ‘how’ or ‘where’ to record
the information. For example, the guidance discusses how to evaluate
responses, but does not address how to track responses.

Potential Loss of Safety/Regulatory Data

NRC issues generic communications to provide guidance, common
approaches to resolve issues, and to share industry’s operating
experiences. Therefore, it is vital that agency management has

                            18
                                  Audit of NRC’s Generic Communications Program

assurance that licensees take actions as expected. As previously
stated, basic tenets of management controls include methods and
procedures adopted by management to ensure its goals are met.

When the agency must rely on the diligence of individuals to track
actions related to generic communications, it cannot have the
programmatic assurance that its goals are met and risks the loss of
significant operational data needed for regulatory and/or reactor safety
decisions.

RECOMMENDATION

OIG recommends that the Executive Director for Operations:

3. Implement controls to ensure a systematic, consistent tracking
   methodology from initiation to closure for each agency-issued
   generic communication.




                            19
                                                         Audit of NRC’s Generic Communications Program

    C. NRC’s Self-Assessment’s Conclusion of Generic Communications
    Program Effectiveness is Not Supported

                Based on NRC’s Commission direction, NRR conducted an
                effectiveness study of Generic Communications Program products.
                Although that study concluded that generic communications were
                effective, the review lacked an adequate sample or scientific basis for
                the conclusion. The limited sample chosen by NRR resulted from an
                inability to reach consensus on a sample selection and because of a
                preconception that the Generic Communications Program was
                effective. As a result of such a limited review, the conclusion that the
                Generic Communications Program products are effective is not
                supported.

                Background

                In March 2004, based on findings by the Davis-Besse Lessons
                Learned Task Force (Task Force),12 the Commission directed staff to
                evaluate whether generic communications accomplish their intent to
                inform licensees and collect information on licensee actions in
                response to serious incidents. The Task Force recommended that
                staff assess the effectiveness of clear communication to licensees and
                licensee follow-up activities. The agency’s definition of “Effectiveness”
                was defined as the achievement of a desired outcome from a program,
                process, or activity in an efficient, realistic, and timely manner.

                Prior to the Task Force report, NRR conducted an effort to identify the
                five highest priority NRC-issued generic communications by requesting
                technical assistance from staff members in NRR, the Office of Nuclear
                Regulatory Research, and NRC’s four regions. The highest priority
                generic communications would then be reviewed for verification of
                continued licensee support and commitment. Agency staff was asked
                to use their expertise to prioritize from a list of 104 pre-screened
                Generic Communications Program products, consisting of 36 bulletins
                and 68 generic letters.




12
   Davis-Besse Reactor Vessel Head Degradation Lessons-Learned Task Force Report, dated September 30,
2002.

                                                  20
                                  Audit of NRC’s Generic Communications Program

Agency’s Self-Assessment Methodology Was Not Statistically Sound

An NRC statistician advised OIG that the agency could not adequately
assess the effectiveness of Generic Communications Program
products based on a review of the small, biased sample size proposed
by NRR (i.e., 6-10 bulletins/generic letters) or from the actual sample
(i.e., two generic communications). Nonetheless, NRR’s self-
assessment concluded that licensees had adequately responded to
generic letters and bulletins. The results communicated to the
Commission further stated that generic communications accomplish
their intent to inform licensees and collect information on licensee
actions in response to significant issues. The self-assessment staff
reported that the Generic Communications Program products are
effective.

¾ NRR's proposed methodology for the effectiveness self-
  assessment was to sample 6-10 bulletins and generic letters from
  the aforementioned prioritized list. The review would include
  inspecting for follow-up activities at 8-10 reactor sites. Although the
  initial methodology was not sound, NRR management and the
  Commission approved this proposal.

According to the NRC statistician, in order to effectively assess the
Generic Communications Program, a significantly larger sampling of
products would have been needed than that proposed by the staff.
The statistician did not provide a specific sample size because such a
decision requires greater insights into how statistical parameters affect
the program (e.g., classifying results by bulletin or generic letter).

Moreover, NRR did not conduct the proposed review previously
described. In actuality, the review consisted of only two generic
communications; one generic letter and one regulatory issue summary
– a category not even identified in the initial screening. Staff reported
that verification of the two generic communications was conducted at
12 plants; three in each of the four regions which OIG notes exceeds
the number originally proposed. However, this review approach, like
the proposed one, was not based on a sound methodology.




                            21
                                    Audit of NRC’s Generic Communications Program




¾      Preconceptions Influenced the Prioritization Exercise
       The agency did not conduct or provide a documented, scientific
       basis for either the proposed or completed sample because staff
       could not reach consensus on the priority of the “most
       significant” generic communications. As a result, the staff
       decided to reduce the sample for review from the proposed 6-10
       high-level generic communications, to just two, including one
       lower-level priority communiqué.


According to those directly involved in sample selection, staff biases
clouded the sample prioritization decisions. In addition, the majority of
those interviewed for this audit, including those directly involved in the
sample selection, are generally satisfied that the agency’s Generic
Communications Program is effective. One senior agency executive
stated that his confidence in the effectiveness of the Generic
Communications Program stems from many years of experience using
NRC’s generic communications process. Such a preconception
contributed to the agency’s acceptance of the projection of program
effectiveness, regardless of sample size.


In discussions on this finding, NRC staff said this effort was never
intended to be a statistical evaluation of the effectiveness of the
Generic Communications Program but rather to be a case study
involving selected communications. Though not intended, the
agency’s reported results implied that the whole Generic
Communications Program, and not just the selected communiqués, is
effective. However, as a result of the inadequate sample size and
selection process, there is no scientific/statistical basis to conclude, or
imply, that the program and its associated products are effective.

RECOMMENDATION

OIG recommends that the Executive Director for Operations:

4. Direct the development of a methodology that will allow the staff to
   gauge the effectiveness of agency-issued generic communications.




                             22
                                            Audit of NRC’s Generic Communications Program


IV.   CONSOLIDATED LIST OF RECOMMENDATIONS

          OIG recommends that the Executive Director for Operations:

          1. Include safeguards advisories, as well as any other agency
             communication tool that meets the definition of a generic
             communication, in the formal Generic Communications Program to
             ensure compliance with regulatory requirements.

          2. Pursue immediately the applicability of including appropriate Office
             of Management and Budget control numbers in safeguards
             advisories.

          3. Implement controls to ensure a systematic, consistent tracking
             methodology from initiation to closure for each agency-issued
             generic communication.

          4. Direct the development of a methodology that will allow the staff to
             gauge the effectiveness of agency-issued generic communications.




                                      23
                                          Audit of NRC’s Generic Communications Program


V.   AGENCY COMMENTS

        On September 6, 2005, OIG discussed its draft report with agency
        senior executives. Subsequent to that meeting, NRC provided informal
        comments on the draft report and OIG met with NRR management to
        address specific issues and concerns needing further clarification
        and/or explanation. On September 27, 2005, the Deputy Executive
        Director for Reactor and Preparedness Programs, Office of the
        Executive Director for Operations, provided a formal response to this
        report in which the staff generally concurs with the report’s findings and
        recommendations. The agency’s transmittal letter and specific
        comments on this report are included as Appendix B.

        This final report incorporates revisions made, where appropriate, as a
        result of the subsequent meeting and the agency’s informal and formal
        written comments. Appendix C contains OIG’s specific responses to
        the agency’s comments.




                                    24
                                         Audit of NRC’s Generic Communications Program

                                                                          Appendix A
SCOPE AND METHODOLOGY

       NRC’s Generic Communications Program products are the primary
       means for communicating with agency licensees. Therefore, all
       elements of the Program must be effective and efficient in order for
       generic communications to accomplish their intent.

       The purpose of this audit was to assess the effectiveness of the
       Generic Communications Program, specifically:

       ¾ whether NRC generic communications are issued in accordance
         with the Generic Communications Program and other regulatory
         requirements, and

       ¾ how NRC tracks licensee actions on generic communications.

       To address the audit objectives, OIG reviewed relevant management
       controls, related documentation, and Federal statutes, including
       reviews of:

       ¾   Management Directives 3.54, 3.57, and 3.53
       ¾   NRC Inspection Manual Chapter 0730
       ¾   NRR Office Instructions LIC-503 and LIC-401
       ¾   NSIR’s Office Instruction COM-201, Security Advisories, and
           Emergent Work Process
       ¾   NRC’s Backfit Rule
       ¾   OMB’s Paperwork Reduction Act
       ¾   GAO’s Internal Control Standards
       ¾   CRGR’s Charter
       ¾   NRC’s Davis-Besse Lessons Learned Task Force Report
       ¾   NRC’s Effectiveness Review of Lessons Learned Task Forces
       ¾   Code of Federal Regulations, Title 10, Parts 50.54(f), 50.71,
           50.109, 70.76, and 76.76
       ¾   NRR, NMSS, and NSIR Operating Plans and Budget Documents

       Auditors conducted interviews and discussions with agency and
       industry individuals, including:

       ¾ Headquarters’ senior managers from the Offices of:
       ¾
           o the Executive Director for Operations, the General Counsel,
              NRR, NMSS, NSIR, Information Services, and Nuclear
              Regulatory Research
                                   25
                                 Audit of NRC’s Generic Communications Program



¾   Representatives from CRGR
¾   Representatives from ACRS
¾   Representatives from the Nuclear Energy Institute
¾   NRC’s statistician

OIG conducted this audit between September 2004 and June 2005 in
accordance with generally accepted Government auditing standards
and included a review of management controls related to the
objectives of this audit. The major contributors to this report were
Anthony Lipuma, Team Leader; Catherine Colleli, Audit Manager;
Yvette Russell, Senior Auditor; and Michael Cash, Technical Advisor.




                           26
                              Audit of NRC’s Generic Communications Program

                                                               Appendix B
FORMAL AGENCY COMMENTS




                         27
     Audit of NRC’s Generic Communications Program




28
     Audit of NRC’s Generic Communications Program




29
     Audit of NRC’s Generic Communications Program




30
     Audit of NRC’s Generic Communications Program




31
                     Audit of NRC’s Generic Communications Program




[Page intentionally left blank.]




              32
                                               Audit of NRC’s Generic Communications Program

                                                                                Appendix C

DETAILED OIG ANALYSIS OF AGENCY COMMENTS

             On September 6, 2005, OIG discussed its draft report with agency
             senior executives. Subsequent to that meeting, NRC provided informal
             comments on the draft report and OIG met with NRR management to
             address specific issues and concerns needing further clarification
             and/or explanation. On September 27, 2005, the Deputy Executive
             Director for Reactor and Preparedness Programs, Office of the
             Executive Director for Operations, transmitted a memorandum with
             formal comments on this report (see Appendix B).


             Below is OIG’s analysis of the agency’s formal comments.

             NRC Comment 1

             1.     At the end of the "Findings" section starting on the bottom of
                    page 6, and also text on page 25, the draft report states that as
                    a result of failure to apply internal control mechanisms, "the
                    agency may not be able to enforce actions requested or
                    required of licensees." The staff believes that the report
                    continues with an erroneous premise in its findings that a
                    generic communication can "require" actions that may be
                    enforced. Generic communications do not impose enforceable
                    requirements to perform actions.

OIG Response
OIG recognizes that generic communications (other than NRC Orders) are not a
recognized vehicle for communicating regulatory requirements. However, some
safeguards advisories contain ambiguous language that could reasonably be
interpreted as a mandate for licensee action or providing information. As such,
the point remains that the failure to follow appropriate regulatory processes
brings into question the agency’s ability to pursue any actions based on these
advisories. Nonetheless, OIG recognizes that use of the word “enforce” in close
conjunction with “require actions” may be misperceived and warrants a change.

The word “enforce” has been changed in the report to “pursue.”




                                         33
                                               Audit of NRC’s Generic Communications Program




             NRC Comment 2

             2. On page 7 of the draft report, the following changes should be
                considered:

                  "A. Safeguards Advisories Are Issued Outside of NRC’s Existing
                  Regulatory Framework

                  NSIR issues security advisories that are developed and distributed
                  outside of NRC’s Generic Communications Program because NSIR
                  managers believe the formal process takes too long. As a result,
                  the advisories, particularly safeguards advisories, are not
                  developed in accordance with the agency’s structured review and
                  approval practices. Consequently, safeguards advisories could be
                  issued that do not meet regulatory requirements. The lack of a
                  formal process could lead to an absence of necessary reviews and
                  thereby compromises NRC’s regulatory process. Furthermore, the
                  lack of a clear, publicly documented process for requesting and
                  disseminating information through safeguards advisories
                  compromises NRC's openness principle for transparent regulation."


OIG Response
The subtle word change does not alter the sentence’s main point that the
agency’s regulatory process is comprised when appropriate reviews are omitted.

OIG revised the report to reflect the requested change in language.

             NRC Comment 3

             3.    On page 16 of the draft report, the following changes should be
                   considered:

                   "Although not typical, Table 2 shows that generic communications
                   can be issued in as little as one day, when necessary. ,when in
                   response to a significant event."




                                         34
                                               Audit of NRC’s Generic Communications Program



OIG Response
The requested word change is subtle and does not alter the sentence’s main
point.

OIG revised the report to reflect the requested change in language.

             NRC Comment 4

             4.    On page 17 of the draft report, the following changes should b
                   considered:

                    "In addition, contrary to perceived inefficiencies with the
                    process, NSIR at times chose the Generic Communications
                    Program (see Table 3) to convey security matters of similar
                    substance to those found in safeguards advisories. Specifically,
                    NSIR issued 18 regulatory issue summaries (a recognized
                    Generic Communications Program product), during the same
                    period when NSIR issued 65 threat and safeguards advisories
                    (unrecognized generic communications products). Yet, in these
                    cases, NSIR has no documented rationale for selecting a
                    recognized generic communications product versus using
                    security advisories."

                    Additionally, the staff believes that improvements have been
                    realized since the "ad hoc days" just after 9/11. Recent SAs
                    have been focused on the following criteria, which is being
                    formalized in an NSIR procedure. The following are considered
                    to be appropriate content of security advisories:

                              •   Notification that the Homeland Security Threat
                                  Advisory System threat level has been elevated
                              •   Notification of National Special Security Events
                              •   Recommended compensatory measures and
                                  suggested actions for rapidly emerging safeguard
                                  and security-related issues
                              •   Requests for security or safeguards information
                                  from licensees related to an imminent vulnerability
                                  or condition
                              •   Guidance on implementing existing security and/or
                                  safeguards regulatory requirements related to an
                                  imminent vulnerability or condition

                                         35
                                               Audit of NRC’s Generic Communications Program


OIG Response
OIG recognizes that NSIR has been working towards formalizing the use of
safeguards advisories, such as employing specific criteria to remove the ad hoc
nature. Deletion of the identified phrase does not change the point of this
paragraph which says that NSIR, at times, used recognized generic
communications products to transmit similar type information as found in the
unrecognized safeguards advisories.

OIG deleted the phrase as requested.

             NRC Comment 5

             5.     On page 19, the draft report states:

                    "Lack of Technical and Regulatory Reviews Compromises
                    NRC’s Regulatory Processes

                    The agency’s use of advisories significantly increased after
                    September 11, 2001. Agency managers and staff, as well as
                    industry representatives have more and more often questioned
                    the regulatory authority for issuing advisories. Of particular
                    concern are the safeguards advisories primarily because, as
                    stated by a senior Nuclear Energy Institute representative, NRC
                    is using many safeguards advisories ‘to establish new
                    requirements without going through the required agency review
                    process.’"

                    Although not formalized, Safeguards Advisories (at least since
                    2003) have been reviewed by the Office of General Counsel to
                    ensure that new requirements are not set and NSIR is unaware
                    of "new requirements" having been issued, via SAs.


OIG Response
The agency states that safeguards advisories have been reviewed by the Office
of the General Counsel (OGC), at least since 2003, to ensure new requirements
are not set. However, as stated in the report, OIG conducted a technical review
of the 65 security advisories identified by NSIR and found that 14% were used for
communicating apparent requirements, including a safeguards advisory dated
June 2004.

Throughout this audit, NSIR could not identify a comprehensive list of safeguards

                                         36
                                                Audit of NRC’s Generic Communications Program


advisories issued for the period under consideration nor could NSIR staff provide
assurance that all safeguards advisories received an OGC review. In fact,
according to NSIR and OGC staff, because the agency was usually anxious to
issue the safeguards advisories, they did not always receive an OGC review.

No change made to the report.


             NRC Comment 6

             6. On page 20 of the draft report, Figure 1 groups all advisories
                (Safeguards and Threat Advisories) issued since 9/11 together.
                This grouping should be reconsidered and the report should focus
                on more recently developed SAs. This would focus the information
                on current practices and would aid the staff’s understanding of
                current program needs.


OIG Response
OIG acknowledges that the agency has shown increased interest in the
development and issuance of safeguards advisories since the start of this audit.
However, as stated in the response to agency comment 5, NSIR was not able to
provide OIG with a complete listing or copies of all issued safeguards advisories
because of a lack of a standard process, including the absence of a numbering
system. While OIG acknowledges that threat advisories have a different use and
follow a different internal process, neither of the advisories receives a formal
regulatory review to ensure proper use. Therefore, information provided in
Figure 1 regarding multiple uses of advisories appropriately applies to both types.

No change made to the report.

             NRC Comment 7

             7.     Page 21 of the draft report states:

                    "As a result, safeguards advisories did not receive . . . ACRS
                    technical review although this committee has a defined role in
                    reviewing any generic communication that conveys
                    requirements on licensees. Without ACRS review, NRC could
                    impose unjustified requirements on its licensees."


                                          37
                                               Audit of NRC’s Generic Communications Program

                    Please note that SAs do not impose requirements, and based
                    on the above statement, an ACRS review is not required.

OIG Response
OIG acknowledges the possibility that not all of the safeguards advisories issued
during the period reviewed would have required an ACRS review. However,
because OIG’s technical review identified a number of advisories which
conveyed apparent requirements, the likelihood exists that in some instances an
ACRS review would have been appropriate. Without the benefit of formal
processing, the agency has no assurance that safeguards advisories would
receive an ACRS review where necessary.

No change made to the report.


             NRC Comment 8

             8.     On page 24 of the draft report, the following changes should be
                    considered:

                    "While NSIR senior managers acknowledge that there should be
                    a clear, formal process for the development and issuance of
                    safeguards advisories, they expressed a need for balance
                    between protecting public openness (an agency goal) and
                    common defense and security (the agency’s mission). Currently
                    there are differing opinions among NRC senior managers
                    regarding the public’s right to know about the information
                    contained in the advisories. As of the date of this report, the
                    public may still not know of the specific existence of specific
                    safeguards advisories because they are not made publicly
                    available even though many do not contain information actually
                    designated classified by the agency as "Safeguards
                    Information."

                    The content of SAs can be classified as: National Security
                    Information (i.e., Top Secret, Secret, Confidential); Safeguards
                    Information; Exempt from Public Disclosure in Accordance with
                    10 CFR 2.390; or a variety of federal agency sensitive
                    unclassified information processes (see SECY-04-0191, dated
                    October 19, 2004). These processes are defined and
                    implemented. The above statement (without suggested
                    changes) is somewhat misleading in that the information in the
                    SAs is classified and protected in accordance with defined and
                                         38
                                                Audit of NRC’s Generic Communications Program

                    formal NRC and federal government processes, and therefore
                    "... differing opinions among NRC senior managers regarding
                    the public’s right to know about the information contained in the
                    advisories" is irrelevant. Additionally, the idea that the public
                    may, or may not, be aware of safeguard advisories is valid.
                    However, the concept that ".... they are not made publicly
                    available even though many do not contain information actually
                    classified by the agency as "Safeguards Information" does not
                    follow because containing "Safeguards Information" is only one
                    of many very valid reasons the content of an SA is not released
                    to the public.

OIG Response
(Agency comment, paragraph 1)
The requested rewording does not alter the intent of the paragraph.

(Agency comment, paragraph 2)
OIG recognizes that there are many bases for withholding safeguards advisories
from public disclosure. However, to date, all safeguards advisories have been
withheld from public disclosure, including some that do not have a clear basis for
withholding.

OIG made the requested revisions.

             NRC Comment 9

             9. On page 24, the statement about the Paperwork Reduction Act
                incorrectly implies that an exemption clause is required if a
                document is not an information request. An exemption clause is
                required only if the document is an information request, but is
                exempt from the requirement for an OMB control number.


OIG Response
OIG concurs with the nuance of this comment.

The statement was revised to accurately reflect the Paperwork Reduction Act
requirements.




                                         39
                                              Audit of NRC’s Generic Communications Program



             NRC Comment 10

             10.    On page 29, in the first paragraph under "Internal Guidance on
                    Processing Generic Communications," the first sentence
                    through "For example" should be deleted and the paragraph
                    should be started from "NRR Office . . ."

OIG Response
The requested deletion does not impact the point of the paragraph.

OIG deleted the language as requested.




                                         40
